HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services at Washington Adventist Hospital, Takoma Park, Maryland,"(A-03-03-00006)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Washington Adventist Hospital,  Takoma Park, Maryland," (A-03-03-00006)
August 12, 2003
Complete
Text of Report is available in PDF format (445 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Medicare properly reimbursed Washington Adventist
Hospital (WAH) for outpatient cardiac rehabilitation services.  WAH contracted with a physician to supervise the services
provided by its cardiac rehabilitation program.  The physician's responsibilities included the approval of cardiac
rehabilitation treatment plans and review of patients' medical records.  However, our review disclosed that the physician
was not in the exercise area during regularly scheduled exercise sessions, nor did he personally see the patients.  In
addition, from our claims review for 29 sampled beneficiaries who received outpatient cardiac rehabilitation services during
calendar year 2001, we determined that WAH received Medicare payments of $15, 946 for services provided to beneficiaries
where medical documentation may not have supported Medicare covered diagnoses and for services not otherwise allowable.